APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Second Circuit, Cayuga Indian
Nation of N.Y. v. Seneca Cty., No. 19-0032
(Oct. 23, 2020) .............................................. App-1
Appendix B
Decision and Order, United States
District Court for the Western District
of New York, Cayuga Indian Nation
of N.Y. v. Seneca Cty., No. 11-cv-6004
(Dec. 11, 2018) ........................................... App-27
Appendix C
Opinion, United States Court of Appeals
for the Second Circuit, Cayuga Indian
Nation of N.Y. v. Seneca Cty., No. 12-3723
(July 31, 2014) ........................................... App-38
Appendix D
Decision and Order, United States
District Court for the Western District
of New York, Cayuga Indian Nation
of N.Y. v. Seneca Cty., No. 11-cv-6004
(Aug. 20, 2012) ........................................... App-43

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 19-0032
________________
CAYUGA INDIAN NATION OF NEW YORK,
v.

Plaintiff-CounterDefendant-Appellee,

SENECA COUNTY, NEW YORK,
Defendant-CounterClaimant-Appellant.
________________
Argued: Jan. 7, 2020
Decided: Oct. 23, 2020
________________
Before: KEARSE, CALABRESI, and CARNEY,
Circuit Judges.
________________
OPINION
________________
CARNEY, Circuit Judge:
This appeal poses the question whether a
federally recognized Indian tribe’s sovereign
immunity from suit prevents a county in New York
State from foreclosing on tribal properties within the
county’s borders for the nonpayment of real estate
taxes.

App-2
In 2007, the Cayuga Indian Nation of New York
(the “Cayuga Nation,” the “Cayugas,” or the “Tribe”)
purchased several parcels of land located in Seneca
County, New York (the “Properties”). After the
Cayugas refused to pay real property taxes levied by
Seneca County (the “County”) on the Properties, the
County in 2010 initiated foreclosure proceedings (the
“Foreclosure Actions”) under Article 11 of the New
York Real Property Tax Law (“Article 11”). In
response, the Cayugas sued the County in federal
district court, asserting (among other claims) that the
Foreclosure Actions were barred by the doctrine of
tribal sovereign immunity from suit. The United
States District Court for the Western District of New
York (Siragusa, J.) agreed with the Cayuga Nation,
ruling in its favor on the parties’ cross-motions for
summary judgment and enjoining the County from
proceeding with the Foreclosure Actions.
In this appeal, Seneca County argues in principal
part that the Foreclosure Actions may proceed under
an “immovable-property exception” to tribal sovereign
immunity from suit. At common law, the County
asserts, a sovereign (e.g., France) would not be
immune from legal actions that challenged the
sovereign’s rights to real (i.e., immovable) property
located outside that sovereign’s own territory (e.g., in
the United States). The County urges us to recognize
an analogous exception here to the general rule of
tribal sovereign immunity from suit, reasoning that
the scope of the immunity to which indigenous tribes
are entitled cannot exceed that enjoyed at common law
by other sovereigns. On this basis, Seneca County
contends, the Foreclosure Actions are permitted.

App-3
We need not reckon with the merits of that
position, however, because we conclude that, even
were we to recognize the County’s proposed exception
to immunity, the Foreclosure Actions lie outside its
bounds. As we explain below, the Foreclosure Actions
do not seek to establish Seneca County’s rights in real
estate such as are the animating concern of the
immovable-property exception. Rather, because in the
Foreclosure Actions the County seeks to seize the
Properties as a remedy for the nonpayment of taxes,
the proceedings are best seen as the functional
equivalent of an action to execute on a money
judgment. Viewed accordingly, they lie well within the
categories of suits from which sovereigns were
traditionally immune under the common law, and the
existence or not of an immovable-property exception to
tribal sovereign immunity is of no moment.
We also reject the County’s interpretation of City
of Sherrill v. Oneida Indian Nation of New York, 544
U.S. 197 (2005) (“Sherrill”), as wholesale
authorization for state tax foreclosure actions against
tribes. We have previously considered and discarded
that reading of Sherrill in two decisions: Oneida
Indian Nation of New York v. Madison County, 605
F.3d 149 (2d Cir. 2010) (“Oneida I”), vacated and
remanded sub nom. Madison County v. Oneida Indian
Nation of New York, 562 U.S. 42 (2011), and Cayuga
Indian Nation of New York v. Seneca County, 761 F.3d
218 (2d Cir. 2014) (“Cayuga I”) (preliminary injunction
decision). While, as a technical matter, neither
opinion’s interpretation of Sherrill binds our ruling
here, we agree with the reasoning consistently
adopted in those two decisions. We therefore finally
put to rest the misguided claim that Sherrill

App-4
abrogated a tribe’s sovereign immunity from suit.
Read properly, it merely narrowed the scope of tribal
immunity from certain forms of state regulation.
For these reasons, and as set forth more fully
below, we AFFIRM the judgment of the District Court.
BACKGROUND

The factual background relevant to this appeal is
undisputed and was established by the parties in their
summary judgment submissions.
The Cayuga Nation is an Indian tribe recognized
by the United States government. In 2007, the
Cayugas purchased the Properties, comprising five
parcels of land located within the boundaries of
Seneca County, in upstate New York. 1 The Tribe
refused to pay the related real property taxes levied by
the County, however, taking the position that the
Properties lay in “Indian country” within the meaning

1 During the state foreclosure proceedings, the five parcels that
constitute the Properties were reconfigured as four separate
parcels.

App-5
of federal law. 2 App’x 13. 3 In due course, the Cayugas’
unpaid tax bill resulted in the imposition of liens
against the Properties by operation of Article 11 of the
New York Real Property Tax Law, the state statutory
scheme governing the County’s collection of real
property taxes. See Oneida Indian Nation of N.Y. v.
Madison Cty., 665 F.3d 408, 429-30 (2d Cir. 2011)
(“Oneida II”) (reviewing “the default tax-enforcement
procedure established by Article 11”). Then, in October
2010, Seneca County moved under Article 11 to
foreclose on the liens and seize the underlying
Properties in satisfaction of the Cayugas’ tax debt.
As noted above, the Cayugas proceeded to sue the
County in federal district court, seeking to enjoin the
foreclosure proceedings. The Tribe maintained that
New York law exempts their lands from state and local
taxation, and that the Foreclosure Actions are also
2

As we have explained elsewhere,
“Indian country” is . . . statutorily defined as “(a) all
land within the limits of any Indian reservation under
the jurisdiction of the United States Government,
notwithstanding the issuance of any patent, and,
including rights-of-way running through the
reservation, (b) all dependent Indian communities
within the borders of the United States whether within
the original or subsequently acquired territory thereof,
and whether within or without the limits of a state,
and (c) all Indian allotments, the Indian titles to which
have not been extinguished, including rights-of-way
running through the same.”

Citizens Against Casino Gambling in Erie Cty. v. Chaudhuri, 802
F.3d 267, 280 (2d Cir. 2015) (quoting 18 U.S.C. § 1151).
3 Unless otherwise noted, this Opinion omits all alterations,
citations, footnotes, and internal quotation marks in quoted text.

App-6
barred by tribal sovereign immunity and the federal
Nonintercourse Act, 25 U.S.C. § 177. 4
In August 2012, the District Court entered a
preliminary injunction halting the Foreclosure
Proceedings based entirely on the Tribe’s claim of
sovereign immunity from suit. In doing so, it relied
heavily on our analysis in Oneida I, where we held
that “the long-standing doctrine of tribal sovereign
immunity” precluded New York counties from
pursuing “[t]he remedy of foreclosure” against tribes
that refuse to pay property taxes. 605 F.3d at 151. The
Supreme Court vacated our Oneida I decision when,
after the Court granted certiorari, the tribe expressly
waived its sovereign immunity in that proceeding. See
Madison Cty. v. Oneida Indian Nation of New York,
562 U.S. at 42. 5 Nonetheless, the District Court found
The Nonintercourse Act (the “Act”) generally “bars sales of
tribal land without the acquiescence of the Federal Government.”
Sherrill, 544 U.S. at 204. In connection with their claim under
the Act, the Cayugas assert that the Properties lie within the
historical boundaries of a 64,000-acre federal reservation that the
Treaty of Canandaigua established in 1794 for their tribe.
Although in 1795 and 1807 they sold most of this land to the State
of New York, the Cayugas allege in their complaint that the
absence of Congressional approval for the sales rendered the
transactions void and violative of the Nonintercourse Act, a
position that, the Cayugas argue in a recent submission to the
Court, is supported by the Supreme Court’s decision in McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020). For its part, Seneca County
disputes that the Treaty of Canandaigua established a
reservation for the Cayugas in the first place.
4

5 While review of Oneida I was pending in the Supreme Court,
the Oneida Indian Nation “passed a tribal declaration and
ordinance waiving its sovereign immunity to enforcement of real
property taxation through foreclosure by state, county and local
governments within and throughout the United States.” Madison

App-7
persuasive the reasoning we had adopted in the
vacated decision, concluding on grounds similar to
those we cited there that the Foreclosure Actions were
very likely barred by the Tribe’s sovereign immunity
from suit, justifying an award of preliminary relief to
the Tribe.
The County appealed, invoking our interlocutory
jurisdiction. In July 2014, a panel of this Circuit
affirmed the District Court’s order. See Cayuga I, 761
F.3d at 221. In a brief opinion, we declined to express
a view as to the substantive import of the Supreme
Court’s vacatur of Oneida I. See id. at 220. Instead,
based on an independent review of the relevant law,
our per curiam opinion simply reaffirmed Oneida I’s
conclusion that federally recognized tribes are
immune from local tax foreclosure actions, see id. at
220-21, and therefore that the District Court did not
abuse its discretion by entering preliminary injunctive
relief.
Following remand, the parties cross-moved for
summary judgment, and on December 11, 2018, the
District Court ruled in favor of the Cayugas. Relying
principally on its earlier preliminary injunction ruling
and our interlocutory decision in Cayuga I, the
District Court concluded that tribal sovereign
immunity from suit prevented Seneca County from
Cty. v. Oneida Indian Nation of N.Y., 562 U.S. at 42. In light of
this “new factual development,” the Supreme Court vacated our
judgment in a brief order and remanded for further proceedings.
Id. On remand, we found that the tribe’s express waiver
compelled the conclusion that sovereign immunity no longer
barred the counties’ tax enforcement actions; the appeal was then
resolved on other grounds. See Oneida II, 665 F.3d at 414-15.

App-8
foreclosing on the Properties. It therefore granted the
declaratory and permanent injunctive relief that the
Cayugas requested and dismissed their remaining
claims as moot. The County then filed this timely
appeal.
DISCUSSION
We review de novo a district court’s grant of
summary judgment, “construing the evidence in the
light most favorable to the non-moving party.” CIT
Bank N.A. v. Schiffman, 948 F.3d 529, 532 (2d Cir.
2020). A district court may award summary judgment
“only if the court concludes that the case presents no
genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of
law.” Morgan v. Dzurenda, 956 F.3d 84, 88 (2d Cir.
2020).
Seneca County advances two main contentions on
appeal. First, it asserts that an “immovable-property
exception” to sovereign immunity permits the
Foreclosure Actions. Generally speaking, this
exception refers to a common law doctrine that
curtails sovereign immunity in legal actions
contesting a sovereign’s rights or interests in real
property located within another sovereign’s territory.
Second, the County urges that the Supreme Court’s
decision in Sherrill ended tribal sovereign immunity
altogether in tax foreclosure actions.
Below, we consider these arguments in turn. At
the threshold, however, we briefly address whether
Cayuga I controls this appeal—a position pressed by
the Cayugas, who insist that it does because the
County raises in this appeal the very arguments that
we considered and rejected in Cayuga I.

App-9
The Cayugas’ view is incorrect. We resolved
Cayuga I on interlocutory appeal of a preliminary
injunction, a distinctive procedural posture. We long
ago observed that, “[o]rdinarily, findings of fact and
conclusions of law made in a preliminary injunction
proceeding do not preclude reexamination of the
merits at a subsequent trial.” Irish Lesbian & Gay
Org. v. Giuliani, 143 F.3d 638, 644 (2d Cir. 1998). This
is because a preliminary injunction order is, by its very
nature, “tentative.” Goodheart Clothing Co. v. Laura
Goodman Enters., Inc., 962 F.2d 268, 274 (2d Cir.
1992). To secure preliminary injunctive relief, a
plaintiff must show “a likelihood of success on the
merits”—it need not achieve “actual success.” Amoco
Prod. Co. v. Vill. of Gambell, 480 U.S. 531, 546 n.12
(1987) (emphasis added). As we explained in
Goodheart Clothing, “[i]t would . . . be anomalous at
least in most cases, and here, to regard the initial
[preliminary injunction] ruling as foreclosing the
subsequent, more thorough consideration of the
merits that the preliminary injunction expressly
envisions.” 962 F.2d at 274.
Two additional considerations reinforce the
correctness of this conclusion. First, in Cayuga I, we
did not explicitly address Seneca County’s immovableproperty argument, and as a general practice, we
avoid relying on “implicit holding[s].” Villanueva v.
United States, 893 F.3d 123, 131 (2d Cir. 2018) (citing
Webster v. Fall, 266 U.S. 507, 511 (1925)). Second, we
think that the Supreme Court’s decision in Upper
Skagit Indian Tribe v. Lundgren, 138 S. Ct. 1649
(2018) (“Upper Skagit”), weighs in favor of treating the
County’s invocation of the immovable-property
exception as presenting an as-yet unresolved question

App-10
of law. In Upper Skagit, which the Supreme Court
decided after we issued our opinion in Cayuga I,
neighboring landowners filed an adverse possession
action against the Upper Skagit Tribe, seeking to
quiet title to a disputed strip of land as to which both
groups lay claim. Upper Skagit, 138 S. Ct. at 1652. The
Washington State Supreme Court initially ruled
against the tribe, but the landowners later conceded
that the state court’s decision rested on an erroneous
interpretation of County of Yakima v. Confederated
Tribes & Bands of Yakima Indian Nation, 502 U.S.
251 (1992). See Upper Skagit, 138 S. Ct. at 1652-53.
The landowners nevertheless urged the United States
Supreme Court to affirm the state court’s judgment
based on the immovable-property exception to
sovereign immunity. Id. at 1654.
The Supreme Court declined to address this
proposed alternative ground for affirmance, choosing
instead to direct the state court to consider the
immovable-property exception (presumably, both its
definition and application) in the first instance. See id.
At the same time, four of the Justices signaled their
willingness to embrace recognition of such an
exception to tribal immunity from suit. In dissent,
Justices Thomas and Alito expressed the view that an
immovable-property exception—which they described
as having been “hornbook law almost as long as there
have been hornbooks”—”plainly extends to tribal
immunity, as it does to every other form of sovereign
immunity.” Id. at 1657 (Thomas, J., dissenting). For
their part, Chief Justice Roberts and Justice Kennedy
identified concerns about applying tribal immunity
from suit to “property disputes of this sort,” writing
that, “if it turns out that the [immovable-property

App-11
exception] does not extend to tribal assertions of rights
in
non-trust,
non-reservation
property,
the
applicability of sovereign immunity in such
circumstances would . . . need to be addressed in a
future case.” Id. at 1655-56 (Roberts, C.J., concurring).
In light of these considerations, we do not think
that our decision in Cayuga I compels us to affirm the
District Court’s judgment. Rather, we do so for the
reasons stated below.
I.

The Immovable-Property Exception

As “domestic dependent nations,” federally
recognized tribes possess “the common-law immunity
from suit traditionally enjoyed by sovereign powers.”
Michigan v. Bay Mills Indian Cmty., 572 U.S. 782, 788
(2014). Courts must avoid “carving out exceptions” to
that immunity and should take care not to restrict
tribes’ historic immunity from suit. Id. at 789-90; cf.
Lewis v. Clarke, 137 S. Ct. 1285, 1293 (2017)
(cautioning against “extend[ing] sovereign immunity
for tribal employees beyond what common-law
sovereign immunity principles would recognize for
either state or federal employees”). The power to
restrict the scope of a tribe’s immunity from suit lies,
instead, with Congress (which is empowered to
authorize suits against tribes) and with the tribes
themselves (which may waive their immunity from
suit, as occurred in Oneida II, 665 F.3d at 414). See
Bay Mills, 572 U.S. at 788.
Seneca County contends that the common law has
long recognized an exception to state and foreign
sovereign immunity in certain cases involving real
property. The County urges us to find an analogous
exception to tribal sovereign immunity, warning that

App-12
a contrary holding would “confer[] super-sovereign
authority to the Cayuga Nation.” Appellant’s Br. 14.
To resolve this appeal, however, we need not rule
on the existence of such an exception to tribal
immunity. This is because, as discussed below, we
conclude that the Foreclosure Actions fall outside the
purview of the common law version of the immovableproperty exception. Otherwise said: even if the County
is correct that an immovable-property exception limits
tribal sovereign immunity from suit, that exception
provides no basis for disturbing the District Court’s
judgment and allowing the Foreclosure Actions to
proceed.
American common law has long recognized an
“exception to sovereign immunity for actions to
determine rights in immovable property.” Upper
Skagit, 138 S. Ct. at 1655 (Roberts, C.J., concurring);
see also City of New York v. Permanent Mission of
India to the United Nations, 446 F.3d 365, 374 (2d Cir.
2006) (“Permanent Mission of India I”) (“This
principle . . . long predated the restrictive theory of
sovereign immunity and the [Foreign Sovereign
Immunities Act].”). This rule—which has developed
primarily in the context of international law and
practice—derives from two basic aspects of sovereign
authority. 6 The first is that “property ownership is not
As noted in the text of this Opinion, questions regarding the
applicability of the immovable-property exception have to date
arisen most often in the context of suits against foreign
sovereigns. See Upper Skagit, 138 S. Ct. at 1657-60 (Thomas, J.,
dissenting) (tying the emergence of the exception to international
law and practice); see also Restatement (Fourth) of Foreign
Relations Law of the United States § 456, reporters’ n.2 (Am. Law
Inst. 2018) (collecting cases applying the exception to foreign
6

App-13
an inherently sovereign function.” Permanent Mission
of India to the United Nations v. City of New York, 551
U.S. 193, 199 (2007) (“Permanent Mission of India II”).
Thus, when a state acquired land outside of its own
territory, courts traditionally treated that land as if it
were owned by a private individual. See Schooner
Exch. v. McFaddon, 11 U.S. (7 Cranch) 116, 145 (1812)
(“A prince, by acquiring private property in a foreign
country, may possibly be considered as subjecting that
property to the territorial jurisdiction, he may be
considered as so far laying down the prince, and
assuming the character of a private individual.”).
The second is that each state has “a primeval
interest in resolving disputes over use or right to use
of real property” located within its own territory.
Asociacion de Reclamantes v. United Mexican States,
735 F.2d 1517, 1521 (D.C. Cir. 1984) (Scalia, J.). Land
is “indissolubly connected with the territory of a
[s]tate,” Upper Skagit, 138 S. Ct. at 1658 (Thomas, J.,
dissenting); the boundaries of a state’s territory, in
turn, generally limit the reach of the state’s sovereign
powers, see The Apollon, 22 U.S. (9 Wheat.) 362, 370
(1824) (“The laws of no nation can justly extend
beyond its own territories, except so far as regards its
own citizens.”). A state therefore “cannot safely permit
the title to its land to be determined by a foreign
power.” Asociacion de Reclamantes, 735 F.2d at 1521
(quoting 1 F. Wharton, Conflict of Laws § 278, at 636
(3d ed. 1905)).
sovereigns). The Supreme Court has recognized and applied an
analogous exception, however, in suits against the states. See
Upper Skagit, 138 S. Ct. at 1655 (Roberts, J., concurring); see also
Georgia v. City of Chattanooga, 264 U.S. 472, 480-482 (1924).

App-14
In keeping with these principles, courts and other
authorities have generally understood the immovableproperty exception as permitting only those lawsuits
against a sovereign that “contest[]” its rights or
interests in real property. Restatement (Second) of
Foreign Relations Law of the United States § 68 cmt.
d (Am. Law Inst. 1965). 7 Accordingly, the exception
has not been thought to eliminate the immunity
defense as to “disputes that arise out of [a foreign
sovereign’s] rights in real estate but do not actually
place [those rights] at issue.” Permanent Mission of
India I, 446 F.3d at 369. 8 Nor has it been applied when
the party who invokes the exception “makes no claim
to any interest” in a foreign sovereign’s real property
and is “not seeking to establish any rights” in that
Different articulations of the immovable-property exception
have found favor over the years. Compare Restatement (Second)
of Foreign Relations Law § 68(b) (the exception covers “action[s]
to obtain possession of or establish a property interest in
immovable property located in the territory of the State
exercising jurisdiction”), with Permanent Mission of India I, 446
F.3d at 375 (the exception covers “disputes directly implicating
property interests or rights to possession”). As discussed in the
text of this Opinion, however, all of the various articulations of
the exception center on actions asserting claims to rights or
interests in real property that compete with those of the
sovereign.
7

In many of these cases, courts looked to the common law
immovable-property exception to help them interpret the Foreign
Sovereign Immunities Act of 1976 (the “FSIA”), 28 U.S.C. § 1602
et seq., the statute that now “governs federal courts’ jurisdiction
in lawsuits against foreign sovereigns.” Permanent Mission of
India II, 551 U.S. at 195. This is because, in enacting the FSIA,
Congress intended “to codify the pre-existing real property
exception to sovereign immunity recognized by international
practice.” Id. at 200; see also infra p. 16-17.
8

App-15
property. MacArthur Area Citizens Ass’n v. Republic
of Peru, 809 F.2d 918, 921 (D.C. Cir. 1987). Instead,
the immovable-property exception has reached only
those disputes that require the court to resolve
competing claims to a right or interest in real
property. See Restatement (Second) of Foreign
Relations Law § 68 cmt. d (describing the exception as
covering “actions for the determination of possession
of, or an interest in, immovable or real property
located in the territory of a state exercising
jurisdiction”).
Thus, for example, the exception plainly applies
to, and allows, a state’s eminent-domain proceedings
against a foreign state’s property located in the state
exercising eminent domain. Permanent Mission of
India II, 551 U.S. at 200. In such proceedings, the
parties assert conflicting rights to land. See
Chattanooga, 264 U.S. at 480 (describing the state’s
right of eminent domain as “superior to property
rights” and as “extend[ing] to all property with the
jurisdiction of the State”); see also Kohl v. United
States, 91 U.S. 367, 371 (1875) (making a similar
point). The exception has also been held to cover and
permit lawsuits seeking to establish “the validity of [a
city’s] tax liens on property held by [a foreign]
sovereign.” Permanent Mission of India II, 551 U.S. at
195. In such cases, an interest in property—i.e., the
existence of a valid lien on real estate—is in dispute.
In contrast, courts have concluded that the
immovable-property exception does not extend to
lawsuits against a foreign sovereign that: (1) arise out
of a slip-and-fall injury occurring on the foreign
sovereign’s land, id. at 200; (2) seek damages and

App-16
injunctive relief on the theory that building
renovations on the foreign sovereign’s property
depreciated the value of neighboring lands,
MacArthur Area Citizens Ass’n, 809 F.2d at 919, 92021; or (3) seek monetary compensation from the
foreign sovereign in connection with the expropriation
of real property located in the United States,
Asociacion de Reclamantes, 735 F.2d at 1519, 1520-24.
Those types of disputes may “arise out of . . . rights in
real estate,” but they all fall short of “actually plac[ing]
[those rights] at issue.” Permanent Mission of India I,
446 F.3d at 369.
Turning back to Seneca County, we conclude that
the Foreclosure Actions fall outside the ambit of the
common law exception to sovereign immunity for
matters involving immovable property. Although a
foreclosure action certainly involves real property, the
Cayuga Nation observes—and we are convinced—that
these “tax enforcement actions are—fundamentally—
about money, not property.” Appellee’s Br. 32. In
commencing the Foreclosure Actions under Article 11,
Seneca County does not seek a court determination
that its tax liens against the Properties are valid. See
Oneida II, 665 F.3d at 430 (observing that, under
Article 11, “unpaid taxes and other assessments
automatically become a lien against the property”
after a certain period of time has passed). Nor does the
County challenge the legitimacy of the Cayugas’
existing rights or interests in those Properties.
Rather, Seneca County invokes its tax-collection
powers to seize the Properties under Article 11 as
satisfaction for the Cayugas’ financial debt for
accrued, unpaid property taxes.

App-17
True, if Seneca County prevailed in the
Foreclosure Actions, it would acquire title to the
Properties. See Kennedy v. Mossafa, 100 N.Y.2d 1, 8
(2003) (explaining that, under Article 11, “the court
enters a judgment directing that title pass in fee
simple absolute to the county”). That transfer of title,
however, would simply serve as a remedy—a way to
satisfy the Tribe’s tax debt. Thus, contrary to the
County’s urging, we do not view the Foreclosure
Actions as “actions to determine rights in immovable
property.” Upper Skagit, 138 S. Ct. at 1655 (Roberts,
C.J., concurring) (emphasis added). Rather, we see
them as actions to pursue a remedy that is available
to Seneca County by virtue of its rights in immovable
property. Accordingly, the Foreclosure Actions are not
covered by the immovable-property exception to
sovereign immunity as it has been recognized at
common law.
We find additional support for our conclusion in
the Restatement (Second) of Foreign Relations Law of
the United States (Am. Law Inst. 1965). Courts have
regularly consulted this edition of the Restatement
when faced with ascertaining the scope of the common
law exception to sovereign immunity for immovable
property. See, e.g., Permanent Mission of India II, 551
U.S. at 200; Permanent Mission of India I, 446 F.3d at
372. In comment (d) of section 65, which generally
addresses the “[i]mmunity of foreign state[s] from
jurisdiction to enforce tax laws,” the Restatement
reports that (as of that writing) “no case has been
found in which the property of a foreign government
has been subject to foreclosure of a tax lien or a tax
sale.” Restatement (Second) of Foreign Relations Law
§ 65 cmt. d. This void, the Restatement explains,

App-18
arises because although “particular types of property
of foreign governments may be carried on the tax rolls
and be made the subjects of levy and assessment,” the
common law immunities enjoyed by foreign sovereigns
“prevent[] the actual enforcement against the
property of a foreign state of a tax claim of the
territorial state.” Id.
Seneca County attempts to downplay the
significance of comment (d)’s report by suggesting that
it “relates only to tax liability arising from ownership
of movable property by a foreign sovereign, not tax
liability from ownership of immovable property.”
Appellant’s Br. 25. The Restatement does not
expressly acknowledge any such limitation, however,
and we see no reason to infer one. In any event, the
County identifies no case before or since the
Restatement issued in which a court in the United
States has applied the common law exception for
immovable property to permit the foreclosure of a
foreign sovereign’s real property for nonpayment of
taxes. 9
In support of its contrary position, Seneca County relies
primarily on authorities that we find inapposite: (1) cases and
scholarly works that restate the immovable-property exception in
general terms; (2) cases in which rights to real property were
actually in dispute, see, e.g., Chattanooga, 264 U.S. at 472
(eminent-domain proceeding), Permanent Mission of India II, 551
U.S. at 195 (lawsuit contesting validity of tax lien); (3) cases that
concern doctrines other than the immovable-property exception
to sovereign immunity, see, e.g., State v. City of Hudson, 231
Minn. 127, 128, 42 N.W.2d 546, 547 (1950)(applying state
constitutional provision);see also, e.g., City Council of Augusta v.
Timmerman, 233 F. 216, 218 (4th Cir. 1916)(applying the rule
that “courts will not interfere by injunction with the collection of
the public revenue, on the ground that a tax is illegal, unless it
9

App-19
Seneca County’s failure to produce such a case is
telling, but hardly surprising. Until the middle of the
20th century, the United States afforded foreign
sovereigns “absolute immunity” from the execution of
judgments against their properties located in this
country. Stephens v. Nat’l Distillers & Chem. Corp., 69
F.3d 1226, 1233 (2d Cir. 1995); see also Restatement
(Fourth) of Foreign Relations Law of the United
States§ 464 reporters’ n.1 (Am. Law Inst. 2018) (“Prior
to the enactment of the FSIA, the United States gave
absolute immunity to foreign sovereigns from the
execution of judgments.”). 10 Thus, “[e]ven if a court
clearly appears that the complainant has no adequate legal
remedy”); and (4) several academic articles that purportedly
identify a handful of judicial decisions (all issued by foreign
courts) authorizing the execution of judgment against a foreign
sovereign’s real property, see, e.g., Charles Fairman, Some
Disputed Applications of the Principle of State Immunity, 22 AM.
J. INT’L L. 566, 567 (1928); Note, Execution of Judgments Against
the Property of Foreign States, 44 HARV. L. REV. 963, 965 (1931).
In our view, these sources fall far short of establishing that the
immovable property exception under common law should be
understood to permit tax foreclosure actions against a foreign
sovereign’s property.
As we noted above, when describing the common law
exception to sovereign immunity for immovable property, courts
have generally looked to the Restatement (Second) of Foreign
Relations Law. See, e.g., Permanent Mission of India II, 551 U.S.
at 200; Permanent Mission of India I, 446 F.3d at 372. This is
because the Restatement (Second) predates the enactment of the
FSIA, whereas more recent editions of the Restatement postdate
the statute and so naturally focus on the FSIA’s articulation of a
statutory immovable-property exception to foreign sovereign
immunity. In any event. we do not see anything in the
Restatement (Third) or Restatement (Fourth) of Foreign
Relations Law that casts doubt on the analysis offered here.
10

App-20
acquired jurisdiction and awarded judgment against a
foreign state,” the “[s]uccessful plaintiffs [would have]
to rely on voluntary payment by the foreign state” to
obtain satisfaction of judgment because the foreign
sovereign’s property
remains shielded from
attachment, arrest, or execution. Rubin v. Islamic
Republic of Iran, 830 F.3d 470, 476-77 (7th Cir. 2016),
aff’d, 138 S. Ct. 816 (2018); see also Dexter & Carpenter
v. Kunglig Jarnvagsstyrelsen, 43 F.2d 705, 708 (2d Cir.
1930) (“The clear weight of authority in this country,
as well as that of England and Continental Europe, is
against all seizures [of a foreign sovereign’s property],
even though a valid judgment has been entered.”).
Nothing in the longstanding case law, moreover,
suggests that this common law rule of “complete
immunity from execution” recognized an exception for
immovable property. Conn. Bank of Commerce v.
Republic of Congo, 309 F.3d 240, 251 (5th Cir. 2002);
see also Stephens, 69 F.3d at 1233 (observing that
“[t]he only exception to this rule was that attachment
could sometimes be allowed in order to obtain
jurisdiction over the foreign entity”). In line with this
view, we observe that Congress apparently did not
conceive that such a limitation already existed when,
as part of the Foreign Sovereign Immunities Act of
1976 (the “FSIA”), it created a series of statutory
“[e]xceptions to the immunity from attachment or
execution”—including, most notably, an immovableproperty exception. 28 U.S.C. § 1610; see also id.
§ 1610(a)(4) (generally abrogating immunity from
execution where “the execution relates to a judgment
establishing rights in property . . . (B) which is
immovable and situated in the United States”). As
evidenced by the FSIA House Report, Congress saw

App-21
these statutory exceptions as deviations from the
common law rule of “absolut[e] immun[ity] from
execution.” H.R. Rep. 94-1487, 27 (1976), reprinted at
1976 U.S.C.C.A.N. 6604, 6626; see also Permanent
Mission of India I, 446 F.3d at 371 (describing the
FSIA House Report as “reliable legislative history”).
The Report explains, in particular, that “[s]ections
1610(a) and (b)” of the FSIA—which set forth all of the
FSIA’s exceptions to immunity from execution—were
“intended to modify this rule by partially lowering the
barrier of immunity from execution.” 1976
U.S.C.C.A.N. at 6626.
A foreclosure action under Article 11 differs in no
meaningful way from an execution of judgment
against property. Just as execution or attachment
enforces a money judgment by seizing the debtor’s
property, the Foreclosure Actions seek a court order
awarding Seneca County title to the Properties as
satisfaction for the Cayugas’ acknowledged money
debt. See Execution, BLACK’S LAW DICTIONARY (11th
ed. 2019) (defining “execution” as the “[j]udicial
enforcement of a money judgment, usu[ally] by seizing
and selling the judgment debtor’s property”);
Attachment, BLACK’S LAW DICTIONARY (11th ed. 2019)
(defining “attachment” as “[t]he seizing of a person’s
property to secure a judgment or to be sold in
satisfaction of a judgment”). The County’s tax
enforcement proceedings therefore fall comfortably
within the absolute immunity from execution of
judgment that foreign sovereigns traditionally enjoyed
at common law.
For all these reasons, we conclude that the
common law exception to sovereign immunity for

App-22
lawsuits concerning immovable property does not
cover the Foreclosure Actions. Accordingly, we need
not—and do not—decide whether an analogous
exception limits the scope of tribal sovereign
immunity from suit.
II. Sherrill’s Import
Seneca County also urges us to overturn the
District Court’s judgment based on the Supreme
Court’s decision in Sherrill. In the County’s view, the
Sherrill Court held that a tribe’s immunity from suit
does not bar tax enforcement actions seeking to
foreclose on lands purchased by the tribe on the open
market.
We have already rejected this reading of Sherrill
on two separate occasions: first in Oneida I, 605 F.3d
at 156-59, and next in Cayuga I, 761 F.3d at 221.
Although for reasons we discussed above neither
decision controls our analysis as a matter of precedent,
we agree with those panels’ analyses and, for the
reasons set forth below, echo their conclusion that
Sherrill does not strip tribes of their immunity from
suit in tax foreclosure proceedings.
Sherrill concerned the taxation of parcels of land
located in the City of Sherrill, New York (“the City”),
that once were part of the historic reservation of the
Oneida Indian Nation (the “Oneidas” or the “Oneida
Nation”). See 544 U.S. at 202. The Oneidas reportedly
sold these parcels to “a non-Indian in 1807,” but later,
in the 1990’s, the tribe repurchased them on the open
market. Id. at 211. When the Oneida Nation then
refused to pay property taxes on those lands to the
City, the City initiated eviction proceedings in state
court. See id. In response, the Oneidas filed a federal

App-23
lawsuit seeking “equitable relief prohibiting, currently
and in the future, the [City’s] imposition of property
taxes” on the lands. Id. at 211-12. The tribe pressed
the position that its “acquisition of fee title to discrete
parcels of historic reservation land revived
[its] . . . ancient sovereignty piecemeal over each
parcel.” Id. at 202.
The Supreme Court rejected the Oneidas’ claim of
immunity from taxation. The tribe’s newly purchased
properties “had been subject to state and local taxation
for generations,” the Court observed. Id. at 214.
Invoking the doctrines of “laches, acquiescence, and
impossibility,” id. at 221, it reasoned that the tribe
should not be permitted to “rekindl[e] embers of
sovereignty that long ago grew cold,” id. at 214. Thus,
the Court concluded, the Oneidas could not “resist[]
the payment of property taxes to Sherrill” on the
ground that the disputed properties were not subject
to the City’s “regulatory authority.” Id. at 202.
As we explained in Oneida I and later affirmed in
Cayuga I, the Court’s holding in Sherrill pertains to a
tribe’s immunity from taxation—e.g., whether a state
or local authority has the power to impose real
property taxes on tribal lands. See Oneida I, 605 F.3d
at 159; Cayuga I, 761 F.3d at 221. It does not, however,
speak to a tribe’s immunity from suit—e.g., whether a
state may use the courts against a tribe to collect taxes
levied against tribal lands. See Oneida I, 605 F.3d at
159; Cayuga I, 761 F.3d at 221. These two types of
immunities are “separate and independent,” we
emphasized, each defined by a “distinctive history” in
the case law. Oneida I, 605 F.3d at 158. Tribal
immunity from the imposition of taxes, for example, is

App-24
“closely tied to the question of whether the specific
parcel at issue is Indian reservation land.” Id. at 157
(quoting Cass Cty. v. Leech Lake Band of Chippewa
Indians, 524 U.S. 103, 110 (1998)). In contrast, “a
tribe’s immunity from suit is independent of its lands.”
Id. (citing Kiowa Tribe of Okla. v. Mfg. Tech., Inc., 523
U.S. 751, 754 (1998)). We therefore concluded that
Sherrill did not abrogate the Oneidas’ immunity from
a suit to collect taxes by simply recognizing the City’s
authority to impose taxes on the tribe’s nonreservation properties. See id. at 159. Instead, we
observed “a difference between the right to demand
compliance with state laws” (which Sherrill
addressed) and “the means available to enforce [those
laws]” (which Sherrill did not consider). Id. at 158
(quoting Kiowa, 523 U.S. at 755).
We see no reason today to depart from this
understanding of Sherrill’s scope and import. In
support of its reading that Sherrill eliminated the
Oneidas’ immunity from suit in tax foreclosure
actions, Seneca County points to a footnote in the
Sherrill majority opinion assailing the dissent’s
“suggest[ion] that, compatibly with [the majority]
decision, the Tribe may assert tax immunity
defensively in the eviction proceeding.” Sherrill, 544
U.S. at 214 n.7. We agree with the Cayuga Nation,
however, that the Court’s reference to “tax immunity”
in footnote 7 concerns the Oneidas’ immunity from
taxation, not its immunity from suit to enforce a tax
liability. We doubt, moreover, that the Supreme Court
would choose to effect such a significant curtailment
of tribal immunity from suit using ambiguous
language relegated to a footnote. Such an approach
would run directly counter to the Court’s admonition

App-25
against “carving out exceptions” to tribal immunity
from suit and its longstanding practice of “defer[ring]
to Congress about whether to abrogate [that]
immunity.” Bay Mills, 572 U.S. at 790.
Nor are we free to alter this legal analysis based
on Seneca County’s dark predictions that, if we affirm
the District Court’s ruling, tribes will “buy large
swaths of property within the County,” and the
County, in turn, will be left remediless if and when
those tribes refuse to pay property taxes. Appellant’s
Br. 37. As we explained in Oneida I, 605 F.3d at 15960, the Supreme Court has already rejected a similar
line of argument in Oklahoma Tax Commission v.
Citizen Band Potawatomi Indian Tribe of Oklahoma,
498 U.S. 505, 514 (1991) (“Potawatomi”). There, the
Court held that while Oklahoma could tax certain
cigarette sales made at the tribe’s convenience store,
the tribe’s immunity from suit precluded the State
from suing to collect unpaid taxes. Potawatomi, 498
U.S. at 512, 514. In reaching this conclusion, the Court
acknowledged that tribal immunity from suit
“bar[red] the State from pursuing the most efficient
remedy.” Id. at 514. It resisted, however, Oklahoma’s
claim that the state “lack[ed] any adequate
alternatives.” Id. The Court pointed out that the State
could, among other things, enter into an agreement
with the tribe “to adopt a mutually satisfactory regime
for the collection of this sort of tax.” Id. And if that
failed, the Court continued, Oklahoma could “of course
seek appropriate legislation from Congress.” Id.
Because those same alternatives are available to
Seneca County with respect to the real property taxes
at issue here, we will not assume that the County’s

App-26
right to tax the Properties presumes the right to use
Article 11 foreclosure proceedings to collect those
taxes. Cf. McGirt, 140 S. Ct. at 2481 (observing that
Oklahoma’s “dire warnings” about the consequences of
recognizing certain lands within that State as
reservation lands are “not a license for us to disregard
the law”). Instead, we adhere to the settled principle
that “it is fundamentally Congress’s job, not ours, to
determine whether or how to limit tribal immunity.”
Bay Mills, 572 U.S. at 800. We therefore conclude—as
we did in Oneida I and Cayuga I—that “[t]he remedy
of foreclosure” is unavailable to the County by virtue
of the Tribe’s immunity from suit. Oneida I, 605 F.3d
at 151.
CONCLUSION
For the reasons set forth above, we AFFIRM the
judgment of the District Court.

App-27
Appendix B
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF NEW YORK
________________
No. 11-cv-6004
________________
CAYUGA INDIAN NATION OF NEW YORK,
v.

Plaintiff,

SENECA COUNTY, NEW YORK,
Defendant.
________________
Filed: Dec. 11, 2018
________________
DECISION AND ORDER
________________
INTRODUCTION
This action challenges Seneca County’s ability to
impose and collect ad valorem property taxes on
parcels of real estate owned by the Cayuga Indian
Nation of New York. The Cayuga Nation contends
both that Seneca County cannot impose the property
taxes, because the subject properties are “located
within an Indian reservation,” 1 and cannot sue to
collect the taxes, because the Cayuga Indian Nation
enjoys sovereign immunity from suit. Now before the
Court are the parties’ cross-motions for summary
1

Amended Complaint [#9] at 1.

App-28
judgment. (Docket Nos. [#55][#60]). On the basis of
tribal sovereign immunity from suit, Plaintiff’s
application is granted and Defendant’s application is
denied.
BACKGROUND
The reader is presumed to be familiar with the
Court’s earlier written decisions in this action which
discussed the facts, procedural history and relevant
law in detail. (See, Docket Nos. [#23][#44][#50]). It is
sufficient here to note that in recent years the Cayuga
Nation purchased at least five parcels of land in
Seneca County. Seneca County imposed property
taxes on the Cayuga-owned properties which the
Cayuga Nation refused to pay. Thereafter, Seneca
County initiated tax foreclosure proceedings against
the Cayuga Nation.
In response to those foreclosure lawsuits, the
Cayuga Nation commenced this lawsuit. The Cayugas’
Amended Complaint purports to assert two causes of
action. The first cause of action alleges that the
County’s attempts to foreclose on the Cayugas’
properties violate federal law, and specifically, the
Treaty of Canandaigua, the U.S. Constitution Article
I, 8, and the “Non-Intercourse Act,” 25 U.S.C. 177. On
this point, the Cayugas’ pleading alleges that any
properties which the Cayugas own in Seneca County
are within the geographic boundary of the 64,000-acre
Cayuga Indian Reservation that was “acknowledged
[by the United States of America] in the Treaty of
Canandaigua, November 11, 1794.” 2 The Amended
Complaint contends that while the Cayuga Nation
2

Amended Complaint [#9] at 7.

App-29
purportedly sold all of that 64,000-acre reservation to
the State of New York, such sales were void ab initio
since they were never approved by Congress as
required by the Non-Intercourse Act. 3 Consequently,
the pleading asserts, “the Nation’s 64,000-acre
reservation continues to exist to this day,” and the
subject properties are “‘Indian Country’ within the
meaning of 18 U.S.C. 1151.” 4 Alternatively, the
Cayugas contend that regardless of the reservation
status of the subject land, the Cayuga Nation
possesses “tribal sovereign immunity, which bars
administrative and judicial proceedings against the
Nation and bars Seneca County from taking any
assets of the Nation.” 5
In sum, the Cayugas’ first cause of action is
twofold: 1) the subject properties are part of the
federally-recognized Cayuga Indian Reservation, and
the County therefore cannot foreclose on the
properties, because it lacks the authority to interfere
with the ownership or possession of federal Indian
reservation lands; and 2) the “Cayuga Indian Nation
of New York” is a “sovereign Indian nation,” which is

See, Amended Complaint [#9] at 9 (“All of those transactions
and transfers were in violation of federal law and were void ab
initio, and the Nation never lost its aboriginal title[.]”).
3

Amended Complaint [#9] at 8. 18 U.S.C. 1151 defines “indian
country,” in pertinent part, as “all land within the limits of any
Indian reservation under the jurisdiction of the United States
Government.”
4

5

Amended Complaint [#9] at 17.

App-30
protected from foreclosure lawsuits by the federal
doctrine of sovereign immunity from suit. 6
The Cayugas’ second cause of action alleges that
Seneca County violated two New York statutes—New
York State Property Tax Law 454 and New York
Indian Law 6—by assessing property taxes on their
properties. On this point, the pleading contends that
both statutes forbid the imposition of taxes on “Indian
reservation” lands. See, Amended Complaint [#9] at
21-22 (“New York [Real Property Tax Law 454]
provides that ‘real property in any Indian reservation
owned by the Indian nation, tribe or band occupying
them shall be exempt from taxation[, while] New York
Indian Law 6 directs that no taxes shall be established
upon Indian Reservation lands. . . . Pursuant to the
aforesaid provision[ ] of state law, taxes should not
have been assessed against the Nation-owned
properties[.]”).
As for relief, the Cayugas’ pleading seeks two
types. First, the Amended Complaint seeks a
declaration that the County cannot foreclose on, or
otherwise “acquire, convey, sell or transfer title” to,
“Nation-owned properties” within Seneca County.
Second, the Amended Complaint seeks an injunction,
prohibiting the County from making “any further
efforts” to foreclose on, acquire, convey or otherwise
sell “Nation-owned properties in Seneca County;”
prohibiting the County from “interfering in any way
with the Nation’s ownership, possession, and
6 Amended Complaint [#9] at 20; see also, id. at 18(d) (referring
to “the Nation’s sovereign immunity, which derives from Article
I, Section 8 of the United States Constitution and from federal
common law[.]”).

App-31
occupancy of such lands;” and requiring the County to
“rescind all acts taken to acquire, convey, foreclose,
sell or transfer title to Nation-owned properties within
Seneca County to date.”
When the Cayugas commenced this action, they
also filed a motion for preliminary injunctive relief
barring Seneca County from proceeding with pending
foreclosure actions affecting the five parcels identified
in the Amended Complaint, on the basis of sovereign
immunity. On August 20, 2012, the Court granted
such preliminary injunctive relief. Cayuga Indian
Nation of New York v. Seneca County, New York, 890
F.Supp.2d 240 (W.D.N.Y. 2012).
Seneca County appealed, but on July 31, 2014, the
United States Court of Appeals for the Second Circuit
affirmed this Court’s ruling, agreeing that the Cayuga
Nation has sovereign immunity from suit. Cayuga
Indian Nation of New York v. Seneca County, New
York, 761 F.3d 218 (2d Cir. 2014). In reliance upon the
Supreme Court’s decision in Michigan v. Bay Mills
Indian Community, 572 U.S. 782, 134 S.Ct. 2024
(2014), the Second Circuit declined to carve out an
exception to the Cayuga Nation’s sovereign immunity
from suit for in rem foreclosure proceedings. Further,
the Second Circuit declined to “read [an] implied
abrogation of tribal sovereign immunity from suit”
into the Supreme Court’s decisions in City of Sherrill,
N.Y. v. Oneida Indian Nation of N.Y., 544 U.S. 197,
125 S.Ct. 1478 (2005) and County of Yakima v.
Confederated Tribes & Bands of the Yakima Indian
Nation, 502 U.S. 251 (1992) , stating that “[s]uch
implied abrogation would be clearly at odds with the
Supreme Court’s solicitous treatment of the common-

App-32
law tribal immunity from suit—as opposed to
immunity from other, largely prescriptive, powers of
the states such as the levying of taxes,” and that
“implied abrogation would also run counter to the
principle that we must ‘defer’ to Congress about
whether to abrogate tribal sovereign immunity.”
Cayuga Indian Nation of N.Y., 761 F.3d at 221
(citations and internal quotation marks omitted).
The Cayuga Nation has now moved for summary
judgment, seeking a declaratory judgment and
permanent injunctive relief as to both causes of action.
However, the Cayuga Nation stresses that the Court
may grant its motion based entirely on sovereign
immunity from suit and not reach the merits of its
other claims. 7
Seneca County has cross-moved for summary
judgment on various grounds including some which
this Court and the Second Circuit have already
considered and rejected. The Court understands,
however, that Seneca County is asserting these
arguments partly in order to make a record for the
See, Pl. Memo of Law [#58] at p. 2 (“But the Court need not
ultimately address [the alternative grounds]: because the Nation
is entitled to full relief on its claim of sovereign immunity from
suit, the Court may dismiss its other claims without prejudice, on
grounds of mootness.”); see also, id. at p. 8 (“[T]he Nation’s
sovereign immunity from suit entitles the Nation to summary
judgment (in the form of declaratory and injunctive relief) that
the County may not pursue foreclosure proceedings as to the
Nation-owned properties. That is the full scope of relief that the
Nation seeks here. Thus, if the Court grants summary judgment
on the basis of sovereign immunity from suit, the Court may
dismiss as moot, without prejudice, the Nation’s remaining
claims.”).
7

App-33
appeal that will surely ensue following this Court’s
ruling. In particular, Seneca County maintains that
the Cayuga Nation is not entitled to sovereign
immunity from suit in this action, and that the County
is entitled to summary judgment on the Nation’s
claims for the following reasons: 1) Supreme Court
precedent including City of Sherrill and County of
Yakima “affirm[s] that State and local taxing
authorities may impose and collect real property taxes
on non-sovereign properties owned in fee title by
Indian tribes”; 2) the Supreme Court’s jurisprudence
concerning tribal sovereign immunity from suit does
not apply to in rem foreclosure proceedings; 8
3) according to City of Sherill the Cayuga Nation’s
claim under the Nonintercourse Act is barred by
laches; 4) the Nonintercourse Act does not apply to feetitled lands over which the Nation cannot exercise
sovereign authority; 5) the Court should deny the
Cayuga Nation’s request for an injunction under the
Anti-Injunction Act; 6) the Cayuga Nation has
abandoned its claim under 42 U.S.C. § 1983; 7) the
Cayuga Nation’s properties are not exempt from
taxation under New York law because the relevant
statutes [New York Real Property Tax Law § 454 and
New York Indian Law § 6] “do not apply to fee-titled
lands over which the tribe is no longer sovereign”;
See, e.g., Def. Memo of Law [#60-2] at p. 21 (“[P]rinciples of
foreign sovereign immunity and State sovereign immunity
[including the so-called “immovable property exception”] support
the conclusion that Seneca County may bring foreclosure
proceedings against Cayuga Nation-owned properties within the
County’s jurisdiction. This is all the more true considering that
Indian tribes actually retain less immunity than that of foreign
sovereigns or the States.”).
8

App-34
8) the Cayuga Nation should be estopped from
claiming that Seneca County cannot impose property
taxes on the subject parcels since it pays taxes on
other properties that it owns in Seneca County; (9 the
Court should decline to exercise supplemental
jurisdiction over Plaintiff’s state-law claims; and 10)
even if the Court reaches the state-law claims the
County is entitled to summary judgment as a matter
of state law.
On March 2, 2018, the Cayuga Nation filed a reply
[#62] addressing the County’s arguments. With regard
to the argument concerning the Anti-Injunction Act,
the Nation contends that the County waived the
argument by failing to raise it when opposing the
Nation’s motion for a preliminary injunction seven
years ago.
On April 20, 2018, the County filed a reply [#67]
in further support of its cross-motion for summary
judgment, which reiterates most of its earlier points
but withdraws the argument involving the AntiInjunction Act. 9 On December 6, 2018, counsel for the
parties appeared before the undersigned for oral
argument.
DISCUSSION
Plaintiff has moved, and Defendant has crossmoved, for summary judgment pursuant to Fed. R.
Civ. P. 56. Summary judgment may not be granted
unless “the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed.R.Civ.P.
56(a). A party seeking summary judgment bears the
9

See, Sur-Reply [#67] at p. 12, n. 3.

App-35
burden of establishing that no genuine issue of
material fact exists. See Adickes v. S.H. Kress & Co.,
398 U.S. 144, 157, 90 S.Ct. 1598, 26 L.Ed.2d 142
(1970). “[T]he movant must make a prima facie
showing that the standard for obtaining summary
judgment has been satisfied.” 11 MOORE’S FEDERAL
PRACTICE, § 56.11[1][a] (Matthew Bender 3d ed.). “In
moving for summary judgment against a party who
will bear the ultimate burden of proof at trial, the
movant may satisfy this burden by pointing to an
absence of evidence to support an essential element of
the nonmoving party’s claim.” Gummo v. Village of
Depew, 75 F.3d 98, 107 (2d Cir.1996) (citing Celotex
Corp. v. Catrett, 477 U.S. 317, 322-23, 106 S.Ct. 2548,
91 L.Ed.2d 265 (1986)), cert denied, 517 U.S. 1190
(1996).
The burden then shifts to the non-moving party to
demonstrate “specific facts showing that there is a
genuine issue for trial.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 250, 106 S.Ct. 2505, 91 L.Ed.2d 202
(1986). To do this, the non-moving party must present
evidence sufficient to support a jury verdict in its
favor. Anderson, 477 U.S. at 249. The underlying facts
contained in affidavits, attached exhibits, and
depositions, must be viewed in the light most
favorable to the non-moving party. U.S. v. Diebold,
Inc., 369 U.S. 654, 655, 82 S.Ct. 993, 8 L.Ed.2d 176
(1962). Summary judgment is appropriate only where,
“after drawing all reasonable inferences in favor of the
party against whom summary judgment is sought, no
reasonable trier of fact could find in favor of the nonmoving party.” Leon v. Murphy, 988 F.2d 303, 308 (2d
Cir. 1993).

App-36
Having considered all of the parties’ arguments
the Court finds for essentially the same reasons stated
in its Decision and Order [#23] granting the
preliminary injunction and in the Second Circuit’s
decision affirming that ruling, which have not
changed, that the Cayuga Nation is entitled to
summary judgment on its claims seeking declaratory
and permanent injunctive relief based upon tribal
sovereign immunity from suit. Since the Court finds
that the Cayuga Nation is entitled to summary
judgment on that basis it does not reach the remaining
aspects of the Nation’s summary judgment motion.
CONCLUSION
Plaintiff’s application [#55] for summary
judgment is granted insofar as it is based upon tribal
sovereign immunity from suit and is otherwise denied.
Seneca County may not foreclose on, acquire,
convey, sell or transfer title to the Nation-owned
properties in Seneca County based on the Tax
Enforcement Notification and Petition annexed to the
Amended Complaint, and all efforts of Seneca County
to do so and to thereby interfere with the Nation’s
ownership, possession and occupancy of such lands are
null and void. Seneca County, its officers, agents,
servants, employees and persons in active concert or
participation with them are permanently enjoined
from any further efforts to effectuate, maintain or
complete foreclosure, acquisition, conveyance or sale
of, or transfer of title to, Nation-owned properties in
Seneca County, and from interfering with the Nation’s
ownership, possession, and occupancy of such lands
due to unpaid property taxes. Seneca County, its
officers, agents, servants, employees and persons in

App-37
active concert or participation with them shall void
and rescind all acts taken to acquire, convey, foreclose,
sell or transfer title to Nation-owned properties within
Seneca County, including those listed in the Tax
Enforcement Notification and Petition and Notice of
Foreclosure annexed to the Amended Complaint.
Plaintiff’s claims that are not based on tribal
sovereign immunity from suit are dismissed without
prejudice. Defendant’s cross motion for summary
judgment [#60] is denied. The Clerk is directed to close
the case.
SO ORDERED.
Dated: Rochester, New York
December 11, 2018
/s/ Charles J. Siragusa
CHARLES J. SIRAGUSA
United States District
Judge

App-38
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 12-3723
________________
CAYUGA INDIAN NATION OF NEW YORK,
v.

Plaintiff-Appellee,

SENECA COUNTY, NEW YORK,
Defendant-Appellant.
________________
Argued: Jan. 7, 2014
Decided: July 31, 2014
________________
Before: KATZMANN, Chief Judge, JACOBS,
and CARNEY, Circuit Judges.
________________
OPINION
________________

Per Curiam:

We are called upon to review an order of the
United States District Court for the Western District
of New York (Charles J. Siragusa, District Judge),
which preliminarily enjoined defendant‐appellant
Seneca County, New York from foreclosing upon
certain real property owned by plaintiff‐appellee the
Cayuga Indian Nation of New York (“Cayuga Nation”).

App-39
Our standard of review of a district court’s
decision to grant or deny a preliminary injunction is
well established, as are the general requirements
placed upon a party seeking a preliminary injunction.
See Oneida Nation of N.Y. v. Cuomo, 645 F.3d 154, 164
(2d Cir. 2011). The only issue in dispute in this appeal
is whether the district court properly determined that
the Cayuga Nation was likely to succeed on the merits.
We review the legal conclusions underlying the
district court’s decision de novo and the district court’s
factual determinations for clear error. See id.
Seneca County initiated foreclosure proceedings
against certain of the Cayuga Nation’s real property
in an attempt to recover uncollected ad valorem
property taxes. After invoking the doctrine of tribal
sovereign immunity and our vacated decision in
Oneida Indian Nation of N.Y. v. Madison County, 605
F.3d 149 (2d Cir. 2010), vacated, 131 S. Ct. 704 (2011),
the district court preliminarily enjoined the County’s
foreclosure proceedings. Seneca County timely
appealed the district court’s order, contending that we
should limit the doctrine of tribal immunity from suit
so as to permit states to bring foreclosure suits to
recover uncollected taxes levied against the property
of Indian tribes.
Seneca County acknowledges that our opinion in
Madison County squarely addressed the question
presented here and held that tribal sovereign
immunity from suit bars these foreclosure actions, see
605 F.3d at 156-60, but the County emphasizes that
the Supreme Court’s decision to vacate our opinion
leaves this panel free from otherwise binding
precedent and urges us to conclude that Madison

App-40
County misconstrued Supreme Court precedent
regarding the doctrine of tribal sovereign immunity.
The State of New York, appearing as amicus curiae,
further contends that the vacatur of our prior opinion
casts substantial doubt on the correctness of the
reasoning of Madison County.
We need not attempt to discern the implied
message communicated by the vacatur of our prior
opinion because the Supreme Court has since issued
further guidance regarding both the continuing
vitality of the doctrine of tribal sovereign immunity
from suit and the propriety of drawing distinctions
that might constrain the broad sweep of that
immunity in the absence of express action by
Congress. In Michigan v. Bay Mills Indian
Community, 134 S. Ct. 2024 (2014), the Supreme
Court once again held that tribes retain, as “‘a
necessary corollary to Indian sovereignty and self‐
governance,’” a common‐law immunity from suit. Id.
at 2030 (quoting Three Affiliated Tribes of Fort
Berthold Reservation v. World Eng’g, P.C., 476 U.S.
877, 890 (1986)). Under this “settled law,” id. at 203031 (quoting Kiowa Tribe of Okla. v. Mfg. Techs., Inc.,
523 U.S. 751, 756 (1998)), courts must “dismiss[] any
suit against a tribe absent congressional authorization
(or a waiver),” id. at 2031. This treatment of tribal
sovereign immunity from suit is an avowedly “broad
principle,” id. at 2031, and the Supreme Court (like
this Court) has “thought it improper suddenly to start
carving out exceptions” to that immunity, opting
instead to “defer” to the plenary power of Congress to
define and otherwise abrogate tribal sovereign
immunity from suit, id. (quoting Kiowa, 523 U.S. at
758).

App-41
Therefore we decline, as has the Supreme Court,
to read a “commercial activity” exception into the
doctrine of tribal sovereign immunity from suit, see
id.; Kiowa, 523 U.S. at 758, and we decline to draw the
novel distinctions—such as a distinction between in
rem and in personam proceedings—that Seneca
County has urged us to adopt, see Bay Mills, 134 S. Ct.
at 2031; see also The Siren, 74 U.S. 152, 154 (1868)
(“[T]here is no distinction between suits against the
government directly, and suits against its property.”).
Notwithstanding Seneca County and the State of
New York’s vigorous argument, we read no implied
abrogation of tribal sovereign immunity from suit into
City of Sherrill, N.Y. v. Oneida Indian Nation of N.Y.,
544 U.S. 197 (2005), or County of Yakima v.
Confederated Tribes & Bands of the Yakima Indian
Nation, 502 U.S. 251 (1992). Such implied abrogation
would be clearly at odds with the Supreme Court’s
solicitous treatment of the common‐law tribal
immunity from suit—as opposed to immunity from
other, largely prescriptive, powers of the states such
as the levying of taxes. See Madison County, 605 F.3d
at 156-59. And implied abrogation would also run
counter to the principle that we must “‘defer’ to
Congress about whether to abrogate tribal [sovereign]
immunity,” Bay Mills, 134 S. Ct. at 2031 (quoting
Kiowa, 523 U.S. at 758).
In short, in the absence of a waiver of immunity
by the tribe, “[u]nless Congress has authorized [the]
suit, . . . precedents demand,” id. at 2032, that we
affirm the district court’s injunction of the County’s

App-42
foreclosure proceedings against the Cayuga Nation’s
property. 1
Accordingly, the order of the district court is
AFFIRMED.

Seneca County also contends that the Cayuga Nation has
either waived sovereign immunity or should be otherwise
estopped from asserting the defense based on the Nation’s
arguments before the New York Court of Appeals in Cayuga
Indian Nation of New York v. Gould, 930 N.E.2d 233 (N.Y. 2010).
See Br. of Defendant‐Appellant at 30-32. “[T]o relinquish its
immunity, a tribe’s waiver must be ‘clear,’” C & L Enters., Inc. v.
Citizen Band Potawatomi Indian Tribe of Okla., 532 U.S. 411,
418 (2001) (quoting Okla. Tax Commʹn v. Citizen Band
Potawatomi Tribe of Okla., 498 U.S. 505, 509 (1991)), and thus it
“‘cannot be implied but must be unequivocally expressed,’” Santa
Clara Pueblo v. Martinez, 436 U.S. 49, 58 (1978) (quoting United
States v. Testan, 424 U.S. 392, 399 (1976)). None of the
statements cited by the County represents an unequivocal
expression by the Cayuga Nation that it has waived its immunity
from suit with respect to the parcels in question.
1

App-43
Appendix D
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF NEW YORK
________________
No. 11-cv-6004
________________
CAYUGA INDIAN NATION OF NEW YORK,
v.

Plaintiff,

SENECA COUNTY, NEW YORK,
Defendant.
________________
Filed: Aug. 20, 2012
________________
DECISION AND ORDER
________________
INTRODUCTION
This action presents the question whether Seneca
County (“Defendant”) may foreclose on real property
owned by the Cayuga Indian Nation of New York
(“Plaintiff”) for failure to pay ad valorem property
taxes. Now before the Court is Plaintiff’s application
for preliminary injunctive relief, enjoining Defendant
from foreclosing on the subject parcels, on the grounds
of tribal sovereign immunity. (Docket No. 4). For the
reasons that follow, the application is granted.
BACKGROUND
Plaintiff is a federally-recognized Indian Tribe
which owns real property in Seneca County. The

App-44
subject dispute involves land that was formerly part of
the 64,000-acre Cayuga Reservation acknowledged by
the Treaty of Canandaigua in 1794. Shortly after
1794, the Cayuga Nation sold large portions of the
Reservation lands to the State of New York. Plaintiff
maintains that such sales were illegal and void ab
initio, since they did not comply with the requirements
of the Non-Intercourse Act, 25 U.S.C. § 177. Plaintiff
contends, therefore, that the entire 64,000-acre
Cayuga Reservation remains intact to this day.
Amended Complaint [#9] at ¶ 10. Defendant
disagrees.
Approximately two centuries after selling off the
Reservation land to the State of New York, Plaintiff
began purchasing parcels of property on the open
market that lie within the geographic area of the
aforementioned Reservation. Plaintiff contends that
such properties are now Reservation land and are
“Indian Country” within the meaning of federal law.
See, Amended Complaint [#9] at ¶¶ 7-10. Defendant
again disagrees.
The subject action involves five1 such parcels of
property located in Seneca County, which were
originally included in the Reservation, but which were
later sold to third parties, and then re-purchased by
Plaintiff. Defendant has attempted to collect ad
valorem property taxes on the parcels, and Plaintiff
has denied any obligation to pay them. As a result,
Defendant initiated foreclosure proceedings, pursuant
1 The Amended Complaint indicates that there are five parcels.
Amended Complaint [#9] at ¶ 7. However, an affidavit submitted
by Plaintiff’s counsel indicates that there are four properties.
Alcott Aff. [#6] at ¶ 3.

App-45
to Article Eleven of the New York State Real Property
Tax Law.
On January 5, 2011, Plaintiff commenced this
action, seeking permanent declaratory and injunctive
relief. At the same time, Plaintiff made the subject
application for preliminary injunctive relief, enjoining
the County from foreclosing on the properties.
Plaintiff contends that it is entitled to injunctive relief
because the foreclosure actions are barred by
sovereign immunity. Specifically, Plaintiff contends
that “[a]s a federally-recognized Indian nation, [it]
possess[es] tribal sovereign immunity [from suit],
which bars administrative and judicial proceedings
against the [Indian] Nation,” even if the taxes are
properly owed. 2 In that regard, Plaintiff relies, in large
part, on the Second Circuit’s decision in Oneida Indian
Nation of New York v. Madison County and Oneida
County, 605 F.3d 149 (2d Cir. 2010) (“Oneida”).
The Court granted Plaintiff’s request for an
expedited hearing, and scheduled the matter to be
Plaintiff maintains that in this action it is not claiming that
the property is “immune from taxation.” Pl. Reply Memo [#21] at
1 (“The Nation does not claim the parcels at issue here are
immune from taxation as a matter of federal law.”) (emphasis
added). Instead, Plaintiff contends that while the County may
impose taxes, it has no right to collect them. Id. (“It is wellestablished that, even where there is no immunity from taxation,
sovereign immunity from suit may bar a state from resorting to
a judicial remedy to enforce its tax.”). Although, Plaintiff’s
Amended Complaint indicates that under New York State law,
“an Indian tribe’s property [is exempt] from taxation if located
within an Indian reservation.” Amended Complaint [#9] at ¶ 1
(emphasis added); see also, id. at ¶ 21 (citing New York Real
Property Tax Law § 454).
2

App-46
heard on January 13, 2011. However, the parties
agreed to stay the foreclosure proceedings, and
stipulated to a briefing schedule, thereby mooting the
request for an expedited hearing.
On February 3, 2011, Defendant filed opposing
papers. Defendant observes that after Plaintiff’s
application was filed, the U.S. Supreme Court vacated
and remanded the Second Circuit’s Oneida decision,
and argues that such decision now “has no
precedential value whatsoever.” Spellane Aff. [#12-1]
at 2. Defendant contends, inter alia, that the Second
Circuit’s opinion was incorrectly decided in any event,
since it was contrary to Supreme Court precedent,
most notably County of Yakima v. Confederated Tribes
and Bands of the Yakima Indian Nation, 502 U.S. 251,
112 S.Ct. 683 (1992) (“Yakima”) and and City of
Sherrill v. Oneida Indian Nation of New York, 544
U.S. 197, 125 S.Ct. 1478 (2005) (“Sherrill”). According
to Defendant, Yakima established that tribal
sovereign immunity does not bar in rem property tax
foreclosure proceedings against property owned by an
Indian tribe, while Sherrill held that an Indian tribe
cannot revive its sovereign authority over land by
purchasing it after years of inaction. 3
Defendant also maintains that the subject foreclosure actions
are not barred by the Indian Trade and Intercourse Act of 1834,
also known as the Non-Intercourse Act. Plaintiff had argued, in
its moving papers, that the foreclosure actions violated the NonIntercourse Act, which prompted Defendant to devote a large
part of its responding brief to that issue. See, Def. Memo of Law
[#12] at pp. 19-33. However, Plaintiff’s reply brief disclaims
reliance on the Non-Intercourse Act as a basis for the subject
motion. See, Pl. Reply Memo of Law [#21] at p. 2, n. 2 (Indicating
that tribal sovereign immunity provides a sufficient basis for
3

App-47
On May 5, 2011, counsel for the parties appeared
before the undersigned for oral argument.
DISCUSSION
Plaintiff seeks an injunction enjoining the statecourt tax foreclosure proceeding, pursuant to the AllWrits Act, 28 U.S.C. § 1651(a) (Providing that federal
courts “may issue all writs necessary or appropriate in
aid of their respective jurisdictions and agreeable to
the usages and principles of law.”); see also, 28 U.S.C.
§ 2283 (A federal court may grant an injunction to stay
state court proceedings “where necessary in aid of its
jurisdiction, or to protect or effectuate its
judgments.”). The parties dispute whether tribal
sovereign immunity applies, and therefore disagree as
to whether the Court should enjoin the state court
proceedings.
A lengthy discussion is unnecessary, since,
according to the Second Circuit’s Oneida decision,
Supreme Court precedent clearly determines the
outcome of this motion, and holds as follows: Even
assuming that Seneca County has the right to impose
property taxes on the subject parcels owned by the
Cayuga Indian Nation, it does not have the right to
collect those taxes by suing to foreclose on the
properties, unless Congress authorizes it to do so, or
unless the Cayuga Indian Nation waives its sovereign
immunity from suit. Congress has not authorized
Seneca County to sue the Cayugas, and the Cayugas
have not waived their sovereign immunity.
granting the motion, without regard to the Non-Intercourse Act).
Accordingly, the Court need not address the Non- Intercourse Act
at this time.

App-48
Consequently, the Cayugas’ motion for an order
enjoining the foreclosure actions must be granted.
The cases upon which the foregoing paragraph
rests are well-known to the litigants and to the courts
that will undoubtedly be called upon to review this
Court’s ruling. For the benefit of anyone reading this
decision who is not familiar with them, and who may
be understandably perplexed by this ruling, the Court
will briefly review the controlling law.
In Kiowa Tribe of Oklahoma v. Manufacturing
Tech., Inc., 523 U.S. 751, 118 S.Ct. 1700, 1702 (1998),
the Supreme Court reaffirmed the federal common
law doctrine that Indian tribes cannot be sued unless
Congress authorizes the suit or unless the tribes waive
their immunity. Significantly, the Supreme Court
held that even if a state has the authority to tax or
otherwise regulate an Indian tribe in a particular
instance, it does not have the ability to sue the tribe to
enforce the tax or regulation, unless Congress
authorizes the suit, or unless the tribe waives its
sovereign immunity:
As a matter of federal law, an Indian tribe is
subject to suit only where Congress has
authorized the suit or the tribe has waived its
immunity. . . . Our cases allowing States to
apply their substantive laws to tribal
activities are not to the contrary. We have
recognized that a State may have authority to
tax or regulate tribal activities occurring
within the State but outside Indian country.
To say substantive state laws apply to offreservation conduct, however, is not to say
that a tribe no longer enjoys immunity from

App-49
suit. In [Oklahoma Tax Comm’n v. Citizen
Band Potawatomi Indian Tribe of Okla., 498
U.S. 505, 111 S.Ct. 905 (1991)], for example,
we reaffirmed that while Oklahoma may tax
cigarette sales by a Tribe’s store to
nonmembers, the Tribe enjoys immunity
from a suit to collect unpaid state taxes. There
is a difference between the right to demand
compliance with state laws and the means
available to enforce them.
Id., 118 S.Ct. at 1702-1703 (emphasis added, citations
omitted). In doing so, the Supreme Court questioned
“the wisdom of perpetuating the doctrine” of Tribal
sovereign immunity, but deferred to Congress to make
any changes in that regard. Id., 118 S.Ct. at 1704-1705
(“The capacity of the Legislative Branch to address the
issue by comprehensive legislation counsels some
caution by us in this area. . . . [W]e decline to revisit
our case law and choose to defer to Congress.”). To
date, Congress has declined that invitation.
In Sherrill, the Supreme Court rejected the
Oneida Indian Nation’s claim to have sovereign
authority, in the form of exemption from property
taxation, over real property which had been part of the
Oneida’s reservation, but which had been sold, and
then repurchased by the Oneidas on the open market:
In this action, [the Oneida Indian Nation]
seeks declaratory and injunctive relief
recognizing its present and future sovereign
immunity from local taxation on parcels of
land the Tribe purchased in the open market,
properties that had been subject to state and
local taxation for generations. We now reject

App-50
th[at] unification theory . . . and hold that
standards of federal Indian law and federal
equity practice preclude the Tribe from
rekindling embers of sovereignty that long
ago grew cold. 4
Id., 125 S.Ct. at 1489-1490. Although the Supreme
Court held that the Oneidas’ property was subject to
taxation, as well as to “local zoning or other regulatory
controls,” it did not explicitly hold that the City of
Sherrill could sue the Oneidas to collect unpaid taxes.
Approximately five years later, in Oneida, the
Second Circuit addressed a dispute that flowed from
the Supreme Court’s decision in Sherrill. Specifically,
in the wake of Sherrill’s holding that the property
recently purchased by the Oneidas was subject to
taxation, Madison County and Oneida County
attempted to collect unpaid taxes from the Oneidas, by
foreclosing on the properties. The Oneidas responded
by seeking an injunction in federal district court,
enjoining the foreclosure actions, on the grounds of
tribal sovereign immunity from suit. The district court
granted summary judgment on that basis for the
Oneidas, and the Second Circuit Panel affirmed that
ruling, stating: “We affirm on the ground that the
[Oneida Indian Nation] is immune from suit under the
long-standing doctrine of tribal sovereign immunity.

4 The Supreme Court observed, however, that the Oneidas
could seek to have the land taken into federal trust, and thus
exempted from State and local taxation, pursuant to 25 U.S.C.
§ 465. Id., 125 S.Ct. at 1495 (“Section 465 provides the proper
avenue for [the Oneidas] to reestablish sovereign authority over
territory last held by the Oneidas 200 years ago.”).

App-51
The remedy of foreclosure is therefore not available to
the Counties.” Id., 605 F.3d at 151.
In that regard, the Second Circuit discussed the
difference between “two distinct doctrines: tribal
sovereign authority over reservation lands and tribal
sovereign immunity from suit.” Oneida, 605 F.3d at
156. The Court specifically stated that Sherrill
involved only the former doctrine, and not the latter.
That is, the Circuit Panel held that Sherrill merely
authorized the imposition of taxes on the Oneida’s
properties, but did not authorize the taxing counties
to take legal action to collect the taxes:
[W]e do not read Sherrill as implicitly
abrogating the [Oneidas’] immunity from
suit. No such statement of abrogation was
made by the Sherrill Court, nor does the
opinion call into question the Kiowa Court’s
approach, that any such abrogation should be
left to Congress. Sherrill dealt with the right
to demand compliance with state laws. It did
not address the means available to enforce
those laws.
Id. at 157-159 (citations and internal quotation marks
omitted). Although the Second Circuit Panel agreed
with the Counties, “that the notion that they may tax
but not foreclose is inconsistent and contradictory,” it
nevertheless concluded that the foreclosure actions
had to be enjoined, since Congress had not authorized
them, and since the Oneidas had not waived their
sovereign immunity. Id. at 159.
In a concurring opinion in Oneida, Judge
Cabranes removed any possible doubt as to the
meaning of the Panel’s decision:

App-52
The holding in this case comes down to this:
an Indian tribe can purchase land (including
land that was never part of a reservation);
refuse to pay lawfully-owed taxes; and suffer
no consequences because the taxing authority
cannot sue to collect the taxes owed. This rule
of decision defies common sense. But absent
action by our highest Court, or by Congress,
it is the law.
Id. at 163 (footnote omitted); see also, id. at 164
(Indicating that the Panel’s ruling was required by
“unambiguous guidance from the Supreme Court,” but
calling upon the Supreme Court, or Congress, to
correct the “anomalous” result and “reunite” “law and
logic.”).
The county defendants in Oneida petitioned for
writ of certiorari, and the Supreme Court agreed to
hear the appeal. However, in an eleventh-hour tactical
move, the Oneidas avoided review by belatedly
agreeing to waive sovereign immunity. Consequently,
the Supreme Court vacated and remanded the action
to the Second Circuit for further action in light of the
Oneidas’ waiver. See, Madison County, N.Y. v. Oneida
Indian Nation of New York, 131 S.Ct. 704 (2011)
(Mem). On remand, the Second Circuit affirmed the
district court’s decision in part, reversed in part,
vacated in part, and remanded with instructions, on
grounds unrelated to the issue of sovereign immunity
from suit. Oneida Indian Nation of New York v.
Madison County, 665 F.3d 408 (2d Cir. 2011).
Against the backdrop of these cases, Defendant
maintains that it is entitled to foreclose on the
Cayugas’ properties, and asks this Court to issue a

App-53
ruling that is directly contrary to the Second Circuit’s
ruling in Oneida. Defendant maintains that the
Oneida decision has no force, since it was vacated by
the Supreme Court. However, the Court disagrees.
Although the Supreme Court vacated the Second
Circuit’s ruling, it did not do so on the merits, and
there is no reason to believe that the Second Circuit
would reach a different decision today. To the
contrary, Judges Cabranes’ concurring opinion, which
Judge Hall joined, indicated that the Panel’s ruling
was necessitated by “unambiguous guidance from the
Supreme Court,” which has not changed.
Defendant nevertheless insists that Oneida was
wrongly decided. According to Defendant, Sherrill
necessarily held that the Oneidas could not invoke
sovereign immunity from suit to avoid the collection of
the disputed property taxes. On this point, in Sherrill,
the Supreme Court stated:
[G]iven the longstanding, distinctly nonIndian character of the area and its
inhabitants,
the
regulatory
authority
constantly exercised by New York State and
its counties and towns, and the Oneida’s long
delay in seeking judicial relief against parties
other than the United States, we hold that
the Tribe cannot unilaterally revive its
ancient sovereignty, in whole or in part, over
the parcels at issue.
Sherrill, 125 S.Ct. at 1483 (emphasis added).
Defendant argues that pursuant to Sherrill, an Indian
tribe that purchases real property that may have
previously been Reservation land is treated no

App-54
differently than any non-Indian land owner with
regard to that property.
At least one district court in this Circuit has
agreed with Defendant on this point. In New York v.
Shinnecock Indian Nation, 523 F.Supp.2d 185, 298
(E.D.N.Y. 2007), which did not involve property taxes,
the district court interpreted Sherrill as permitting a
lawsuit against the Oneidas to collect the unpaid
taxes:
[I]t is clear from the Supreme Court’s decision
in Sherrill that a tribe can be prevented from
invoking a defense of sovereign immunity
where equitable doctrines preclude the tribe
from asserting sovereignty over a particular
parcel of land. In other words, the Sherrill
Court held that the [Oneidas] could not invoke
sovereign immunity to defend against local
real property tax enforcement proceedings,
including eviction proceedings. 544 U.S. at
211, 125 S.Ct. 1478. Specifically, . . . Justice
Stevens argued in his dissent that tribal
immunity could be raised “as a defense
against a state collection proceeding.” Id. at
225, 125 S.Ct. 1478. However, the majority
opinion specifically rejected that reasoning.
See id. at 214 n. 7, 125 S.Ct. 1478 (“The
dissent suggests that, compatibly with
today’s decision, the Tribe may assert tax
immunity defensively in the eviction
proceeding against Sherrill. We disagree.”);
see also id. at 221, 125 S.Ct. 1478 (Souter, J.,
concurring) (rejecting claim of territorial
sovereign status whether affirmative or

App-55
defensive). Thus, Sherrill allows a tribe to be
sued by a state or town, such as the instant
case, to enforce its laws with respect to a parcel
of land if equitable principles prevent the tribe
from asserting sovereignty with respect to that
land. To hold otherwise would completely
undermine the holding of Sherrill because, if
defendants are immune from suit, plaintiffs
here would be left utterly powerless to utilize
the courts to avoid the disruptive impact that
the Supreme Court clearly stated they have
the equitable right to prevent.
(emphasis added). However, the Second Circuit
subsequently vacated the district court’s decision in
Shinnecock for lack of subject matter jurisdiction,
without addressing the merits of the ruling. See, New
York v. Shinnecock Indian Nation, 686 F.3d 133 (2d
Cir. Jun. 25, 2012).
The New York Court of Appeals has also
seemingly interpreted Sherrill as permitting lawsuits
against the Oneidas, and, by extension, the Cayugas,
to collect property taxes on properties that were
recently bought on the open market. In that regard, in
Cayuga Indian Nation v. Gould, 14 N.Y.3d 614, 640,
642-643, 930 N.E.2d 233 (2010), the Court of Appeals
made the following observation about the Sherrill
decision:
In City of Sherrill, the Supreme Court applied
the doctrines of laches, acquiescence and
impossibility to bar a claim by the Oneida
Indian Nation that its repurchase of
aboriginal lands resulted in the reassertion of
that tribe’s sovereign authority relieving the

App-56
tribe of the obligation to pay real property
taxes on the reacquired parcels.
***
City of Sherrill certainly would preclude the
Cayuga Nation from attempting to assert
sovereign power over its convenience store
properties for the purpose of avoiding real
property taxes[.]
(emphasis added).
Consequently, if this Court were writing without
the benefit of guidance from the Second Circuit, it
might well have been inclined to agree that Sherrill’s
broad language bars the Cayugas from asserting any
sovereign authority involving the recently-purchased
parcels, including sovereign immunity from suit. See,
Sherrill, 125 S.Ct. at 1483 (“[T]he tribe cannot
unilaterally revive its ancient sovereignty, in whole or
in part, over the parcels at issue.”). On this point, the
Court finds one of Plaintiff’s statements at oral
argument to be particularly interesting. Specifically,
Plaintiff’s counsel indicated that the Tribe does not
claim to have sovereign immunity against tax
foreclosure proceedings on all real property that it
owns, regardless of location, but instead, only claims
such immunity with regard to its property within the
geographic boundary of the Cayuga Reservation as
established by the Treaty of Canandaigua. In other
words, Plaintiff maintains that it has sovereign
immunity from suit as to foreclosure actions against
properties within the Reservation, which it maintains
has never been disestablished, but not as to properties

App-57
outside the Reservation. 5 This argument seems to
admit that the Cayugas’ ability to claim sovereign
immunity from suit is inherently tied to its ability to
exercise at least some amount of sovereign authority
over the land. This position, though, does not appear
helpful to Plaintiff, since, according to Sherrill, the
Cayugas cannot assert any sovereign authority over
the recently-purchased land, “in whole or in part,” due
to equitable considerations, even though it may lie
within the Reservation.
Accordingly, there is some persuasive force to
Defendant’s argument that Plaintiff cannot assert
sovereign immunity from suit involving the subject
properties, based upon the same practical and
equitable considerations that drove the Sherrill
decision. However, for the reasons stated above, the
Court will follow the Second Circuit’s ruling in
Oneida, which, although technically without effect
after being vacated, clearly rejects Defendant’s
argument.

On this point, Plaintiff curiously seems to claim less sovereign
immunity from suit than it could have, pursuant to Oneida, since
in that case, the Second Circuit indicated that sovereign
immunity from suit applied even to foreclosure actions involving
property that was never part of an Indian reservation. See,
Oneida, 605 F.3d at 163 (“[A]n Indian tribe can purchase land
(including land that was never part of a reservation); refuse to
pay lawfully-owed taxes; and suffer no consequences because the
taxing authority cannot sue to collect the taxes owed.”) (emphasis
added) (Cabranes, J., concurring opinion). Plaintiff’s position also
seems inconsistent with the statement in Oneida that the
doctrines of tribal sovereign authority over tribal land and
sovereign immunity from suit are entirely distinct.
5

App-58
Defendant nevertheless argues that the Second
Circuit’s Oneida decision is erroneous because it failed
to consider that the subject foreclosure actions are in
rem proceedings, to which, Defendant argues, tribal
sovereign immunity from suit does not apply.
However, in the district court decision that was on
appeal in Oneida, Judge Hurd expressly rejected the
same argument by Madison County, that tribal
sovereign immunity from suit did not apply to in rem
foreclosure actions: “The County cannot circumvent
Tribal sovereign immunity by characterizing the suit
as in rem, when it is, in actuality, a suit to take the
tribe’s property.” Oneida Indian Nation of New York
v. Madison County, 401 F.Supp.2d 219, 229 (N.D.N.Y.
2005). On appeal to the Second Circuit, the county
defendants again argued that the Oneidas’ tribal
immunity from suit did not apply in an in rem tax
foreclosure proceeding. See, Brief and Special
Appendix
for
Defendants-CounterclaimantsAppellants, 2007 WL 6432637 at pp. 58 (“Yakima and
other cases make it clear that any sovereignty
possessed by a tribe qua tribe is irrelevant in an in rem
tax foreclosure proceeding.”) & 60 (“It is clear from
Sherrill and Yakima that different standards govern
Indian claims of sovereign immunity, depending on
whether there is a claim against the tribe itself, or a
claim against land owned by the tribe that is not
sovereign Indian country. This central distinction is
rooted in the limited nature of an in rem action, which
looks only to the property for relief.”) (footnote
omitted).
As already discussed, though, the Second Circuit
disagreed with the Counties’ arguments, and
specifically found that the foreclosure actions were

App-59
barred by the doctrine of tribal sovereign immunity
from suit. See, Oneida Indian Nation of New York v.
Madison discuss Defendant’s argument about in rem
proceedings in the decision, it obviously considered
and rejected it. Accordingly, the Court need not revisit
that issue.
To the extent that Defendant’s argument on this
point relies upon the Supreme Court’s decision in
County of Yakima v. Confederated Tribes & Bands of
the Yakima Indian Nation, 502 U.S. 251, 112 S.Ct 683
(1992), the Court disagrees that the case stands for the
proposition that tribal sovereign immunity from suit
is inapplicable to in rem proceedings. Yakima involved
the State of Washington’s ability to tax certain “fee
patent” parcels of land, located within the Yakima
Reservation, that had become alienable under the
General Allotment Act. Yakima’s use of the terms in
rem and in personam pertained to the difference
between the imposition, not collection, of taxes on a
piece of land, as opposed to an individual. The
Supreme Court concluded that Yakima County had
the power to impose an ad valorem tax on the land,
pursuant to an express grant from Congress, but not
the ability to impose an excise tax on sellers of the
land. Admittedly, the Yakima decision did refer in
passing to the “power to assess and collect a tax on
certain real estate.” Id., 112 S.Ct. at 692 (emphasis
added). However, that statement appears to be dicta,
since the Yakima decision did not involve tribal
sovereign immunity from suit.
Defendant next contends that the Cayuga Nation
waived any sovereign immunity from suit to which it
may be entitled, by paying taxes on some properties.

App-60
However, a waiver of tribal sovereign immunity must
be “clear.” Oklahoma Tax Com’n v. Citizen Band
Potawatomi Indian Tribe of Oklahoma, 498 U.S. 505,
509, 111 S.Ct. 905, 909 (1991) (“Suits against Indian
tribes are thus barred by sovereign immunity absent
a clear waiver by the tribe or congressional
abrogation.”) (citation omitted). The Cayugas’
payment of taxes on certain parcels of property does
not amount to such a waiver.
Finally, Defendant argues that the Cayugas
should be estopped from claiming sovereign immunity
from suit, since, in a separate action before the New
York Court of Appeals, they indicated that they were
paying property taxes on their lands. See, Cayuga
Indian Nation of New York v. Gould, 14 N.Y.3d at 642,
n. 11 (“The Cayuga Indian Nation acknowledges its
obligation to pay real property taxes and comply with
local zoning and land use laws on these parcels and it
is undisputed that the Nation has, to date, fulfilled
those obligations.”). However, that language from the
Gould decision referred specifically to the two
“convenience store properties,” one in Cayuga County
and one in Seneca County, that were the subject of
that decision, not to all tribe-owned parcels that had
been purchased on the open market. Accordingly, the
Cayugas are not estopped from claiming sovereign
immunity from
suit
merely because
they
acknowledged that they were paying taxes on parcels
unrelated to this action.
For the foregoing reasons, the Court finds that
Plaintiff has demonstrated that the subject
foreclosure actions are barred by the Tribe’s sovereign

App-61
immunity from suit, and that it is therefore entitled to
preliminary injunctive relief.
CONCLUSION
Plaintiff’s application for preliminary injunctive
relief [#4] is granted.
SO ORDERED.
Dated: August 20, 2012
Rochester, New York
/s/ Charles J. Siragusa
CHARLES J. SIRAGUSA
United States District
Judge

